No. 19-309
IN THE

Ouprettle Court of tjje Eniteb Otateo
GOVERNOR OF DELAWARE,
Petitioner,
v.
JAMES R. ADAMS,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF OF STATE AND LOCAL
GOVERNMENT ASSOCIATIONS AS AMICI
CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,736 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 28, 2020.

Colin Case
ogan
Wilson-Epes Printing Co., Inc.

